      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                      Washington, D.C. 20201




July 14, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Head Start Health and Safety Standards at Cerebral Palsy of Colorado,
                Inc. (A-07-09-02764)


Attached, for your information, is an advance copy of our final report on Head Start health and
safety standards at Cerebral Palsy of Colorado, Inc. (CPCO). We will issue this report to CPCO
within 5 business days. The Administration for Children and Families, Office of Head Start,
requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or
through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-09-02764.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106




July 20, 2010

Report Number: A-07-09-02764

Ms. Judith I. Ham
Director
Cerebral Palsy of Colorado, Inc.
801 Yosemite Street
Denver, CO 80230-6087

Dear Ms. Ham:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Head Start Health and Safety Standards at
Cerebral Palsy of Colorado, Inc. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02764 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Judith I. Ham


Direct Reply to HHS Action Official:

Mr. Ross Weaver
Regional Program Manager, Region VIII
Administration for Children and Families, Office of Head Start
1961 Stout Street, Room 926
Denver, CO 80294-3538
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF HEAD START
HEALTH AND SAFETY STANDARDS
   AT CEREBRAL PALSY OF
      COLORADO, INC.




                      Daniel R. Levinson
                       Inspector General

                          July 2010
                        A-07-09-02764
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Cerebral Palsy of Colorado, Inc. (CPCO), a private, nonprofit corporation, operates five Head
Start facilities in Colorado: one in Denver and four in Aurora. CPCO provides the following
services to enrolled children and their families: education and special education, health and
social services, and parental involvement and community partnerships.

For the 2009–2010 grant year (July 1, 2009, through June 30, 2010), OHS awarded $5,058,927
in Federal Head Start funds to CPCO to provide services to 462 children at the 5 facilities. On
June 30, 2009, CPCO also received $249,781 in Recovery Act funding.

OBJECTIVE

Our objective was to determine whether CPCO complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

CPCO complied with the majority of Federal and State requirements on ensuring the health and
safety of children in its care. However, CPCO did not comply with all Federal and State health
and safety requirements. Specifically, as of September 2009:

   •   Employee files showed that CPCO had obtained criminal background and child abuse
       and neglect checks in accordance with Federal and State requirements for 75 of its 115
       employees. However:

           o CPCO did not obtain criminal background checks on five employees.

           o CPCO did not obtain the results of child abuse and neglect checks on 15
             employees. Additionally, child abuse and neglect checks on 20 employees likely
             were not requested within the required timeframe.

   •   CPCO’s five facilities did not meet all Federal Head Start and State health and safety
       regulations on protecting children from unsafe conditions.

These deficiencies occurred because CPCO did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and


                                                i
State health and safety regulations. CPCO’s failure to comply with these regulations potentially
jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that CPCO develop and consistently implement procedures to ensure that:

   •   employees are hired only after passing criminal background checks, all child abuse and
       neglect checks are requested within 10 days of employment, and all employee files
       contain documentation of criminal background and child abuse and neglect checks and

   •   all unsafe conditions identified in this report are addressed in a timely manner.

AUDITEE COMMENTS

In written comments on our draft report, CPCO concurred with our findings and described its
completed and ongoing actions to address the deficiencies that we identified. CPCO’s comments
are included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              State Regulations for Head Start Grantees.....................................................1
              Cerebral Palsy of Colorado ............................................................................2
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PREEMPLOYMENT AND POSTEMPLOYMENT CHECKS ...............................4
               Criminal Background Checks ........................................................................4
               Child Abuse and Neglect Checks .................................................................4

          FACILITY SAFETY .................................................................................................5
               Federal and State Regulations........................................................................5
               Grantee’s Policies and Procedures .................................................................6
               Grantee’s Compliance With Facility Safety Regulations ..............................6

          INADEQUATE POLICIES AND PROCEDURES .................................................8

          RECOMMENDATIONS ..........................................................................................8

          AUDITEE COMMENTS ..........................................................................................9

APPENDIXES

          A: LACK OF COMPLIANCE WITH HEALTH AND SAFETY REGULATIONS

          B: AUDITEE COMMENTS




                                                                    iii
                                          INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

State Regulations for Head Start Grantees

In Colorado, the Department of Human Services, Division of Childcare (State agency), is the
licensing agency for childcare programs. Standards for licensure of childcare programs are
found in the Code of Colorado Regulations (CCR), 12 CCR 2509-8. The health and sanitation of
licensed childcare facilities are regulated by the Colorado Department of Public Health and
Environment, as specified in 6 CCR 1010-7. For the period of our review, State officials said
that under Colorado Revised Statutes 26-6-103(b), Head Start facilities were exempt from State
licensing requirements. However, a Head Start facility that is exempt from State licensing
requirements can receive a license from the State agency if the grantee applies for that license
and meets the requirements. Cerebral Palsy of Colorado (CPCO), the Head Start grantee that is
the focus of this review, operates five childcare facilities, two of which were licensed.




                                                 1
Cerebral Palsy of Colorado

CPCO, a private, nonprofit corporation, operates five Head Start facilities in Colorado: one in
Denver (the Lowry facility) and four in Aurora (the Bemis, Florence, Ironton, and Jamaica
facilities). CPCO provides the following services to enrolled children and their families:
education and special education, health and social services, and parental involvement and
community partnerships. Two facilities offer both Head Start (children aged 3 to 5 years) and
Early Head Start (children aged 0 to 3 years) programs; the rest of the facilities offer only Head
Start programs.

For the 2009–2010 grant year (July 1, 2009, through June 30, 2010), OHS awarded $5,058,927
in Federal Head Start funds to CPCO to provide services to 462 children at the 5 facilities. On
June 30, 2009, CPCO also received $249,781 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CPCO complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered CPCO’s employee records and facilities as of September 2009. To gain an
understanding of CPCO’s operations, we conducted a limited review of CPCO’s internal controls
as they related to our audit objective.

We performed our fieldwork from September 2 through September 4, 2009, at CPCO’s
administrative office and childcare facility in Denver, Colorado, and at its four childcare
facilities in Aurora, Colorado.

Methodology

To accomplish our objective, we:

   •    selected CPCO based on prior risk analyses and discussions with ACF officials;

   •    reviewed Federal and State laws, regulations, and policies related to Federal grant awards
        and the Head Start program;




                                                 2
      •    interviewed CPCO officials;

      •    reviewed CPCO’s policies and procedures;

      •    reviewed CPCO’s current Head Start grant award documents;

      •    reviewed CPCO’s files on all 115 current Head Start employees; 1

      •    reviewed CPCO’s licenses and documentation of fire inspections;

      •    visited CPCO’s five childcare facilities; and

      •    discussed our preliminary findings with CPCO officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

CPCO complied with the majority of Federal and State requirements on ensuring the health and
safety of children in its care. However, CPCO did not comply with all Federal and State health
and safety requirements. Specifically, as of September 2009:

      •    Employee files showed that CPCO had obtained criminal background and child abuse
           and neglect checks in accordance with Federal and State requirements for 75 of its 115
           employees. However:

               o CPCO did not obtain criminal background checks on five employees.

               o CPCO did not obtain the results of child abuse and neglect checks on 15
                 employees. Additionally, child abuse and neglect checks on 20 employees likely
                 were not requested within the required timeframe.

      •    CPCO’s five facilities did not meet all Federal Head Start and State health and safety
           regulations for protecting children from unsafe conditions.

These deficiencies occurred because CPCO did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. CPCO’s failure to comply with these regulations potentially
jeopardized the health and safety of children in its care.


1
    The 115 current employees were partially funded by the Head Start grant award.


                                                          3
PREEMPLOYMENT AND POSTEMPLOYMENT CHECKS

Criminal Background Checks

Pursuant to § 648A(g) of the Head Start Act (42 U.S.C. § 9843a(g)), a Head Start grantee may
not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State, tribal, or
Federal criminal record check covering all jurisdictions where the grantee provides Head Start
services to children; (2) a State, tribal, or Federal criminal record check as required by the law of
the jurisdiction where the grantee provides Head Start services; or (3) a criminal record check as
otherwise required by Federal law.

CPCO’s documentation showed that CPCO had not requested criminal background checks on
five employees (three teacher assistants and two parent meeting paraeducator assistants) who
were minors when hired. CPCO officials stated that they did not request criminal background
checks on minors because records for individuals under the age of 18 are sealed. However,
ACF’s program instructions 2 state that “no Head Start staff … can be employed in any capacity
until the criminal record check for the individual has been completed.” In response to our
question about this issue, the Colorado Bureau of Investigation informed us that its policy is to
conduct a criminal background check on an individual under the age of 18 if the individual
requests a check. CPCO’s practice regarding criminal background checks for minor employees
does not comply with Federal requirements.

By not ensuring that all employees had cleared a criminal record check, CPCO potentially
jeopardized the safety of children in its care.

Child Abuse and Neglect Checks

Pursuant to State regulations (12 CCR 2509-8 § 7.701.32), a Head Start grantee is required to
determine whether any employee of its licensed facilities is the subject of a confirmed report of
child abuse or neglect. The grantee is required to request a check of the State Department of
Human Services system, which tracks child abuse and neglect cases. This request must be made
within 10 calendar days of the first day of employment for each employee of a licensed facility.

CPCO’s employee files lacked documentation showing that CPCO had requested child abuse and
neglect checks on 15 of the 69 employees at the 2 licensed facilities. (The 15 employees
comprised an education supervisor, 3 teachers, 4 teacher assistants, a translator, a speech
language pathologist assistant, an occupational therapist, 2 family service workers, and 2
janitors.) With respect to the two janitors, a CPCO official stated that CPCO did not request
child abuse and neglect checks on employees in occupations that did not require close proximity
to children. However, this practice does not comply with State regulations for licensed facilities.
In addition, 7 of the 13 remaining employees without documentation of child abuse and neglect
checks had been employed for more than a year. After we informed CPCO of these deficiencies,
CPCO obtained child abuse and neglect checks on 11 of the 13 employees and requested but had
not obtained the 2 remaining checks as of November 2009.


2
    ACF–PI–HS–08–04, issued September 3, 2008.


                                                  4
For most employees of CPCO’s licensed facilities, we could not determine whether CPCO had
requested child abuse and neglect checks within the required 10-day timeframe because
employee files did not contain the dates of the requests. However, we identified 20 employees
whose child abuse and neglect checks were completed more than 6 months after their hire dates
and concluded that these checks likely had not been requested within the required timeframe. A
CPCO official said that CPCO normally submitted the form requesting a child abuse and neglect
check during a new employee’s orientation. However, CPCO had no written policy directing
that the request be made within 10 calendar days of employment, and the CPCO official
acknowledged that the 10-day deadline was not always met.

By not ensuring that all employees had cleared a child abuse and neglect check, CPCO
potentially jeopardized the safety of children in its care.

FACILITY SAFETY

Federal and State Regulations

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities. The regulations (45 CFR
§ 1304.53(a)) require that:

   •   outdoor play areas at center-based programs be arranged to prevent any child from
       leaving the premises and entering unsafe and unsupervised areas;

   •   the selection, layout, and maintenance of playground equipment and surfaces minimize
       the possibility of injury to children;

   •   electrical outlets accessible to children prevent shock through the use of child-resistant
       covers, child-protection outlets, or safety plugs;

   •   windows and glass doors be constructed, adapted, or adjusted to prevent injury to
       children;

   •   flammable and other dangerous materials and potential poisons be stored in locked
       cabinets accessible only to authorized persons, and all medications, including those
       required for staff and volunteers, be stored under lock and key;

   •   garbage and trash be stored in a safe and sanitary manner; and

   •   toileting and diapering areas be separated from areas used for cooking, eating, or
       children’s activities.

Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or stringent than the Head Start regulations or if no State or local licensing
standards are applicable (as in the case of nonlicensed facilities), grantees must ensure that their



                                                  5
facilities comply with the Head Start Program Performance Standards related to health and safety
found in 45 CFR § 1304.53(a).

State regulations (6 CCR 1010-7, Rule §§ 2-103(a) and 3-103 (b)) state that exterior garbage and
rubbish containers must be easily cleanable, covered, and well maintained and that painted
finishes must be free from peeling or chipping paint. Furthermore, 12 CCR 2509-8, Rule
§ 7.702.91.F states that “[n]othing flammable or combustible can be stored within three feet of a
furnace or hot water heater.”

Grantee’s Policies and Procedures

CPCO’s Personal Belongings and Money policy states that “Staff member[s]’ personal effects
and clothing shall be stored separately and inaccessible to children.”

Grantee’s Compliance With Facility Safety Regulations

CPCO’s childcare facilities did not meet all Federal Head Start and State health and safety
regulations on protecting children from unsafe materials and equipment. We noted deficiencies
at all five facilities and reported the deficiencies to CPCO officials.

Bemis (not State licensed, visited September 2, 2009)

   •   A binder containing paper was atop the furnace (Appendix A, Photograph 1); the binder
       was hot when we moved it. The furnace was in an area that was not part of the space
       leased by CPCO. CPCO staff had access to the furnace but had not inspected it.

   •   The windows of two second-story classrooms lacked protective guards. The windows
       were located near the floor, directly above the baseboard heater, and were easily
       accessible to children (Appendix A, Photograph 2). During our visit, the windows were
       open.

   •   The lock on the cleaning supply closet, which was located in the hallway between
       classrooms, was not engaged. The facility director told us that the lock was not engaged
       because the key to the closet was missing.

   •   Cleaning supplies were stored in an unlocked cabinet under the kitchen sink (Appendix
       A, Photograph 3). The kitchen was accessible only through two classroom doors, neither
       of which had a lock. As a result, children could enter the kitchen.

   •   All of the trash containers in the classrooms were uncovered and accessible to children.

   •   A classroom window was broken and had a piece of cardboard covering the hole.

   •   The classrooms had wire-framed bookcases containing empty binders. Although the
       bookcases were lightweight and could be pulled over by a child, they were not mounted
       to the wall.



                                                6
Ironton (not State licensed, visited September 2, 2009)

   •   Flammable material was stored near the water heater.

   •   Scrap materials, including plywood with splintered edges, were stored between a storage
       shed and the fence surrounding the playground (Appendix A, Photograph 4).

   •   The area behind the storage shed, which was adjacent to a parking lot, was largely hidden
       from view of the supervised areas.

   •   A utility pole guide wire with a metal cover was located next to a sidewalk where
       children rode tricycles (Appendix A, Photograph 5). The metal cover could injure a
       child.

   •   Electrical outlets under a play table in a classroom lacked protective safety plugs. In
       addition, an outlet on the playground lacked protective safety plugs.

   •   A window shade cord in a classroom was not secured. A CPCO official stated that this
       was an oversight.

   •   A teacher’s aide stored a purse, which potentially could contain medication or other
       harmful items, in an unlocked cabinet accessible to children in a classroom.

   •   All of the trash containers in the classrooms were uncovered and accessible to children.

   •   The classrooms had wire-framed bookcases containing empty binders. Although the
       bookcases were lightweight and could be pulled over by a child, they were not mounted
       to the wall.

   •   Two classrooms had small metal hooks attached to the wall within reach of children.

Jamaica (State licensed, visited September 3, 2009)

   •   A dust mop was stored next to the water heater, and a mop head was draped over the
       heater (Appendix A, Photograph 6); both items presented fire hazards.

   •   In two classrooms and in a hallway, electrical outlets within reach of children lacked
       protective safety plugs.

   •   In the hallway between classrooms, a closet containing a water heater and cleaning
       supplies was unlocked.

   •   All of the trash containers in the classrooms were uncovered and accessible to children.

   •   An exterior trash container located next to the exit to the playground was uncovered.




                                                7
   •   A classroom had mobile bookcases with protruding metal latches within reach of
       children.

Florence (not State licensed, visited September 3, 2009)

   •   Flammable materials were stored near two water heaters.

   •   Cleaning supplies were stored in unlocked cabinets accessible to children.

   •   An unlocked cabinet in the employee lounge, which did not have a door, contained
       plastic bags, a suffocation hazard.

   •   All of the trash containers in the classrooms were uncovered and accessible to children.

   •   An unsecured carpet edge in a classroom presented a tripping hazard. A CPCO official
       stated that the carpet was scheduled to be replaced in the near future.

Lowry (State licensed, visited September 4, 2009)

   •   Toothbrushes were kept next to the diaper-changing tables in classrooms (Appendix A,
       Photograph 7).

   •   In the play area of one classroom, a small metal hook was attached to the back of a
       bookcase where it was within reach of children.

   •   A classroom had mobile bookcases with protruding metal latches within reach of
       children.

   •   The walls of five classrooms had areas of chipped paint. The facility was in a newly
       constructed building; however, a CPCO official told us that the material used on the walls
       could be easily damaged.

INADEQUATE POLICIES AND PROCEDURES

These deficiencies occurred because CPCO did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety regulations. CPCO’s failure to follow these regulations potentially
jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that CPCO develop and consistently implement procedures to ensure that:

   •   employees are hired only after passing criminal background checks, all child abuse and
       neglect checks are requested within 10 days of employment, and all employee files
       contain documentation of criminal background and child abuse and neglect checks and



                                                8
   •   all unsafe conditions identified in this report are addressed in a timely manner.

AUDITEE COMMENTS

In written comments on our draft report, CPCO concurred with our findings and described its
completed and ongoing actions to address the deficiencies that we identified. Specifically,
CPCO stated that it had modified its background check policies to require child abuse and
neglect checks on custodial staff, criminal and child abuse and neglect checks on employees
under the age of 18, and timely processing of requests for background checks. Furthermore,
CPCO said that it had corrected the majority of the health and safety findings and that it had
secured funding for upgrades and repairs to correct the remaining findings by June 30, 2010.
Finally, CPCO stated that it had modified its onsite health and safety monitoring procedures to
address the areas that we identified.

CPCO’s comments are included in their entirety as Appendix B.




                                                9
APPENDIXES
                                                                                       Page 1 of 4


   APPENDIX A: LACK OF COMPLIANCE WITH HEALTH AND
                 SAFETY REGULATIONS




          Photograph 1 – Taken at the Bemis facility on 9/2/2009 showing a
          binder of paper on top of the furnace.




Photograph 2 – Taken at the Bemis facility on 9/2/2009 showing a classroom window
located above the baseboard heater and accessible to children but without a guard to
prevent a child from falling through the screen.
                                                                              Page 2 of 4




Photograph 3 – Taken at the Bemis facility on 9/2/2009 showing cleaning supplies
in an unlocked cabinet under the kitchen sink that was accessible to children.




    Photograph 4 – Taken at the Ironton facility playground on 9/2/2009
    showing scrap materials, including plywood with splintered edges,
    stored between a storage shed and the fence.
                                                                                      Page 3 of 4




            Photograph 5 – Taken at the Ironton facility playground on 9/2/2009 showing a utility
            pole guide wire with a metal cover located next to a sidewalk where children rode
            tricycles.




Photograph 6 – Taken at the Jamaica facility on 9/3/2009 showing a dust mop next to
the water heater and a mop head draped over the heater.
                                                                              Page 4 of 4




Photograph 7 – Taken at the Lowry facility on 9/4/2009 showing toothbrushes
next to the diaper-changing table.
                           APPENDIX B: AUDITEE COMMENTS 




     May 27, 2010


     Report Number .-\-07-09-02764
                                                                                 -,
                                                                               '?ucp~      COLORADO
                                                                               I Idp,ng children, ;nd;.,;d""bo ~rnl familiu
                                                                                       =          Iheir ,.or-o:r...t
     Office of Inspector General 

     Officc of Audi t Services 

     Region VII 

     601 East nth Street 

     Room 0429
     Kansas City. Missouri 64 \06

     Dear Debra J. Keasling for Patrick Cogley,

     In response to the recommendations from the draft report entitled Review ofHead Start Health
     and Safery Standards at Cerebral Palsy a/Colorado, Inc. from the U.S Department of Health
      and Human Services Office of [nspeclor General Cerebral Palsy of Colorado has taken the
      following actions.

     Cerebral Palsy of Colorado concurs with the finding that CP had obtained criminal background
     checks and Child Abuse and Neglect checks on 75 of the 1 J 5 employees files reviewed

     CP of Colorado has changed the practice of Obtaining background checks to include Child Abuse
     and Neglect checks of custodial staff and criminal and Child Abuse and Neglect checks on
     employees under the age of 18

     CP of Colorado has implemented procedures to ensure the timely processing of these
     background checks. However, through our tracking of the receipt of the Child Abuse and
     Neglect checks we are not receiving results in a timely manner, at times they have been delayed
     up to 90 days.

      In addition, all outstanding issues noted in the report have been corrected.

      CP of Colorado concurs that Lite five facilities did nOt meet all Federal Head SUIt and State
      hea lth and safety regu lations.

      CP of Colorado     nas
                           corrected the majority of identified deficiencies in the report. Tn addition,
      funds have been allocated to make necessary upgrades and repairs to ensu re the health and safety
      of the childrcn served in the program. All deficiencies will bc corrected by June 30, 20 1O. CP of
      Colorado has modified their internal site visit check list to include monitoring o f areas identified
      in the report and have reviewed with staff.

      Thank you and please feel free to contact us if any additional infonnation is needed.




              I. Ham 

      President/CEO 


80 t Yosemite St.   Denver, CO 80230   TEL 303.69 t.9339   FAX 303.69 1.0846    WEB www.clKO·o rg           - , . . . -...
